ES, IG-98-036, Contingency Planning at Goddard Space Flight Center
CONTINGENCY PLANNING AT
GODDARD SPACE FLIGHT CENTER
IG-98-036
Executive Summary
Background
NASA represents one of the larger, more complex, and diverse information
system environments in the Federal Government.  The Agency operations use
information systems to support earth and space mission functions for a full
array of processing environments, including scientific and engineering
computing in academic, research center, production plant, and space vehicle
environments. To ensure continued operations when emergencies occur that
interrupt computer support, managers must develop and test contingency plans.
Objectives
The objective of the audit was to determine whether Goddard Space Flight
Center (GSFC) had a management-approved contingency plan for the Packet
Processor II (PACOR II) Data Capture Facility, the Solar Heliospheric
Observatory (SOHO) Mission Operations Center, and the Hubble Space Telescope
Data Operations Control Center.  (See Appendix B for a description of each
facility.)  Specifically, we determined whether the contingency plans
included appropriate procedures for emergency response, backup operations,
and testing of the plans.  We also determined whether plans were tested
annually and whether personnel responsible for plan execution were
adequately trained.  (See Appendix A for additional information on
objectives, scope, and methodology.)
Audit Results
Emergency response procedures, testing, and personnel training for the
Hubble Space Telescope Data Operations Control Center and PACOR II were
adequate.  Backup operations for the Hubble Space Telescope Data Operations
Control Center were also adequate.  Initially, GSFC lacked formal security
and risk management plans for the SOHO Mission Operations Center. GSFC
management and the Consolidated Network and Mission Operations Support
contractor completed these plans for the SOHO Mission Operations Center on
April 22, 1998.
However, GSFC's lack of a SOHO Mission Operations Center contingency
plan could increase the time required to respond to an emergency.  The lack
of backup operations and recovery procedures for PACOR II could affect the
conduct of the Tropical Rainfall Measurement Mission and cause delays in
processing science data for its customers if processing capability is lost.
Also, failure to analyze the potential effects of man-made and natural
disasters on information systems increases the possibility of extended
downtime and inability to support customer requirements.
Recommendations
Management should develop and implement a contingency plan for the SOHO Mission
Operations Center; identify the effects of partial or total loss of information
systems capability due to natural or man-made disasters; coordinate with
system users on acceptable risks; and develop recovery strategies and
procedures.
Management's Response
Although management concurred with the recommendations and agreed to
implement them, management did not provide details on corrective actions for
each recommendation.  Therefore, we request additional comments on the final
report.